                                                     U.S. DEPARTMENT OF
                                     HOUSING AND URBAN DEVELOPMENT
                                             OFFICE OF INSPECTOR GENERAL




                                                     July 11, 2013

                                                                                                  MEMORANDUM NO:
                                                                                                  2013-CF-1802

Memorandum
TO:               Dane M. Narode
                  Associate General Counsel for Program Enforcement, CACC


FROM:             Kimberly Randall
                  Director, Joint Civil Fraud Division, GAW

SUBJECT:          Final Civil Action: Judgment of Civil Money Penalty Imposed on Realtor for
                  Preforeclosure Scheme


                                                INTRODUCTION

The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General
(OIG), investigated an alleged preforeclosure scheme involving 31 properties financed with
Federal Housing Administration (FHA)-insured loans. OIG assisted the U.S. Attorney’s Office
of the Central District of California, which brought the civil case under the Financial Institutions
Reform, Recovery, and Enforcement Act of 1989 (FIRREA). 1

                                                 BACKGROUND

On August 1, 2011, the U.S. Attorney’s Office filed a complaint in U.S. district court seeking
civil money penalties against Mario Menendez. The complaint alleged that between January 1,
2001, and December 31, 2003, Menendez executed a scheme to defraud HUD and lenders on 31
FHA-insured mortgages. Menendez, a realtor, certified to the lender as part of HUD’s
preforeclosure program regulations, 2 that there were no hidden terms or special understandings

1
  Under FIRREA, 12 U.S.C. (United States Code) 1833a, the Federal Government may recover civil penalties
  against persons who violate or conspire to violate specific provisions of criminal statutes involving financial
  fraud.
2
  HUD’s preforeclosure program allows FHA borrowers who are behind on their mortgage payments to sell their
  properties to avoid foreclosure. When the sales price is less than the outstanding debt, these transactions are
  commonly referred to as “short sales.” The real estate agent assisting the borrower under this program certifies to
  the preforeclosure lender that there are no hidden terms or special understandings with the buyer or seller.
                                                         Joint Civil Fraud Division
                                          400 State Avenue, Suite 501, Kansas City, KS 66101
                                    Visit the Office of Inspector General Web site at www.hudoig.gov.
concerning the transactions. However, Menendez had allegedly prearranged the sale of the
properties before the preforeclosure transactions had occurred and had not disclosed the
prearranged sales and respective agreed-to sales prices to the lender. Further, in 27 of the 31
transactions, Menendez purchased the preforeclosure properties through his various real estate
companies at the sales prices that he helped set and negotiate with the lenders. Menendez then
resold them on the same day for a substantial gain.

                                           RESULTS

The alleged scheme caused the preforeclosure lenders to submit claims to HUD for the 31 FHA
loans, which HUD paid but which were not reduced by Menendez’s alleged fraudulent gains. On
March 6, 2013, the U.S. District Court of the Central District of California ordered Menendez to
pay a civil penalty in the amount of $40,000, based on the stipulations of FIRREA.

                                    RECOMMENDATION


We recommend that HUD’s Office of General Counsel, Office of Program Enforcement,

1A.    Agree to allow HUD OIG to record the $40,000 court-ordered civil penalty of $40,000 in
       HUD’s Audit Resolution and Corrective Actions Tracking System as funds put to better
       use.




                                                2
